No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
TONY LAM,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
NOW COMES Petitioner Tony Lam, through undersigned counsel, and moves
this Honorable Court for leave to proceed in forma pauperis and to file the attached
Petition for Writ of Certiorari without prepayment of costs, pursuant to Supreme
Court Rule 39 and 18 U.S.C. ยง 3006A(d)(7). A United States Magistrate Judge for the
Eastern District of Louisiana declared Mr. Lam indigent and appointed the Federal
Public Defender to represent him on appeal. See United States v. Lam, No. 2:17-CR00169, Dkt. 72, (E.D. La. June 12, 2019) (order) (attached hereto).
WHEREFORE, Petitioner respectfully moves this Honorable Court for leave
to proceed in forma pauperis and to file the attached Petition for Writ of Certiorari
without prepayment of costs.

Respectfully submitted this 31st day of July, 2020.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org

2

Case 2:17-cr-00169-MLCF-KWR Document 72 Filed 06/13/19 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

UNITED STATES OF AMERICA

CRIMINAL ACTION

VERSUS

NO. 17-169

TONY LAM

SECTION: F
ORDER

The United States District Court referred the motion of Tony Lam for appointment
of counsel on appeal to the Duty Magistrate Judge.
After review of the motion, the financial affidavit and the application to proceed
without pre-payment of fees submitted by the defendant, this Court has determined that
Tony Lam is indigent. Accordingly,
IT IS ORDERED that the motion for appointment of counsel on appeal is
GRANTED.
IT IS FURTHER ORDERED that the Office of the Federal Public Defender is
appointed to represent the defendant on appeal.
New Orleans, Louisiana, this 12th
____ day of June, 2019.

_____________________________________
MICHAEL NORTH
UNITED STATES MAGISTRATE JUDGE

